                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2008 – March 31, 2009
                                                                     AGENCY PROFILE

Effective January 20, 2009, President        to fund a ceiling of 1,680 full-time
Barack H. Obama designated Wilma B.          equivalents. NLRB Headquarters is at
Liebman as Chairman. Chairman                1099 14th Street, NW, Washington, DC.
Liebman has served on the Board since
November 14, 1997.                           In addition to the Headquarters building,
                                             employees are located in 51 field offices
Peter C. Schaumber continues to serve        throughout the country. Three satellite
as a Board Member, and currently there       offices for the administrative law judges
are three vacant seats on the five-          are located in Atlanta, San Francisco,
Member Board.                                and New York City. Since October 2,
                                             2000, field offices have included 32
Ronald Meisburg continues to serve as        Regional Offices, 16 Resident Offices,
the General Counsel.                         and 3 Subregional Offices.


The NLRB received an appropriation of        Additional information about the NLRB
$262,595,000 for Fiscal Year (FY) 2009       can be found at www.NLRB.gov.




NLRB OIG Semiannual Report               2         October 1, 2008 – March 31, 2009
                                       OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       Effective November 23, 2008, former
At the time of this report, the Agency          Chairman Peter C. Schaumber appointed
has not adopted its budgetary operating         David P. Berry as Inspector General.
plan and the OIG has not received an            Prior to the appointment, Mr. Berry was
allocation of funds. Funding, however,          the Acting Inspector General and
is being provided to the OIG on an as           Counsel/Assistant Inspector General
needed basis.                                   for Investigations.


In addition to the Inspector General, the       Jennifer S. Kovachich entered on duty as
OIG consists of a Counsel/Assistant             Counsel/Assistant Inspector General for
Inspector General for Investigations, an        Investigations effective January 18,
Assistant Inspector General for Audits,         2009.
two auditors, and a staff assistant.




NLRB OIG Semiannual Report                  3           October 1, 2008 – March 31, 2009
                                                             AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports and two issue alerts.

Reports Issued                                   obligations recorded against the FY
   We issued Audit Report                       2008 appropriation.
OIG-F-13-09-01, Audit of the NLRB
Fiscal Year 2008 Financial Statements,           The Management Letter by CBTC, as
on December 16, 2008. The audit,                 part of the financial statement audit
performed by Carmichael, Brasher,                process, contained two findings with
Tuvell & Company (CBTC), an                      recommendations. One of the findings
independent public accounting firm,              and recommendations involved the issue
found that NLRB's FY 2008 Financial              with the Central Contractor Registration
Statements were fairly stated. Although          and the other involved incremental
no material weaknesses in controls over          funding of a contract. The Management
financial reporting were identified, an          Letter also provided information on the
issue involving noncompliance with               status of four prior year
laws and regulations was reported.               recommendations.


The issue involving noncompliance with           The Agency’s responsible management
laws and regulations was that the                official agreed with the findings in the
Agency did not comply with the Federal           audit report, but the official disagreed
Acquisition Regulation (FAR)                     with the analysis of the cause for the
requirement that contractors have active         FAR noncompliance. The official made
registrations in the Central Contractor          no comments on the Management Letter
Registration when it entered into two            findings. Management agreed to work
contracts totaling $111,002. The result          with the OIG to resolve the incremental
was that there were two invalid                  funding finding.




NLRB OIG Semiannual Report                   4          October 1, 2008 – March 31, 2009
                                                                          AUDIT PROGRAM

   We issued Audit Report                         lack of documentation, we could not
OIG-AMR-59-09-01, Laptop Computer                  determine when the laptop computers
Accountability and Security, on                    became missing. In addition to the 21
February 27, 2009. We conducted this               missing laptop computers, we also found
audit to determine whether Agency-                 that two additional laptop computers had
owned laptop computers were properly               been improperly removed from the
controlled and configured to protect               electronic inventory system.
sensitive data.                                    Information regarding these laptop
                                                   computers was referred to the OIG
We found that the Agency’s laptop                  investigative staff.
computers were not properly controlled
and not all of the laptop computers were           The primary recommendation made in
configured to protect sensitive data. In           the report was that the Agency develop
general, the Office of the Chief                   and maintain an inventory system that
Information Officer lacked a system of             includes written procedures and a
internal control for the Agency’s laptop           method for ensuring that those
computers.                                         procedures are followed. The
                                                   responsible management official
As a result of the lack of internal control,       generally agreed with the findings and
there was a significant risk of loss of            recommendations.
equipment and, therefore, the data stored
on that equipment. During the course of            We released Issue Alert OIG-IA-09-01,
the audit, we identified 21 laptop                 Top Management and Performance
computers as either being lost, stolen, or         Challenges, on October 17, 2008. The
otherwise missing. While 17 of the                 OIG developed a list of what it considers
missing laptop computers were older and            to be the most serious management and
no longer in useful service, because of a          performance challenges currently facing
                                                   the NLRB. They are:



NLRB OIG Semiannual Report                     5          October 1, 2008 – March 31, 2009
                                                                        AUDIT PROGRAM

1. Issue Board decisions in a timely            The purpose of this Issue Alert was to
    manner so as to ensure the effective        notify the Board and General Counsel of
    enforcement of the National Labor           internal control issues involving the
    Relations Act;                              Agency’s procurement functions. The
2. Maintain the Agency's institutional          Issue Alert encouraged the Board and
    knowledge;                                  the General Counsel to meet and discuss
3. Manage the Agency during periods             a means of restructuring the procurement
    of time that are covered by                 function and concluded that, at a
    continuing resolutions and                  minimum, consideration should be given
    appropriations that are expected to         to removing the procurement function
    be flat or provide only nominal             from the Procurement and Facilities
    increases;                                  Branch and the Division of
4. Manage the Agency's procurement              Administration. The managers
    process to ensure compliance with           responsible for the procurement function
    the Federal Acquisition Regulation;         did not agree with our assessment or
5. Strengthen control over employees'           suggested action.
    use of Agency information
    technology assets to include Internet       Although not in response to the Issue
    access; and                                 Alert, the Division of Administration is
6. Implement e-government initiatives           in the process of establishing a
    to effectively communicate with             procurement office separate from the
    parties and the public.                     Procurement and Facilities Branch. This
                                                action should, in part, address the
   We released Issue Alert OIG-IA-09-          concerns that resulted in the release of
    02, The Agency's Procurement                the Issue Alert.
    Function, on October 21, 2008.




NLRB OIG Semiannual Report                  6         October 1, 2008 – March 31, 2009
                                                                     AUDIT PROGRAM

Audit Follow-up                                  Audit of the NLRB Fiscal Year
Agreed upon actions were not completed        2007 Financial Statements, OIG-F-12-
within 1 year on four audit reports.          08-01, was issued on December 17,
                                              2007, and we reached agreement with
   Audit of the NLRB Fiscal Year             management on that date. Action has
2006 Financial Statements, OIG-F-11-          been completed on one of the three
07-01, was issued on December 14,             recommendations. The Agency is
2006, and we reached agreement with           actively working to implement one
management on June 14, 2007. We are           recommendation and we are reviewing
in the process of reviewing the actions       actions taken by the Agency that
taken by the Agency to determine if the       implemented another recommendation.
final open recommendation has been
implemented.                                     Office of the Chief Information
                                              Officer Procurement Functions, OIG-
   Continuity of Operations,                 AMR-57-08-01, was issued on March
OIG-AMR-55-07-03, was issued on               14, 2008, and we reached agreement
September 18, 2007, and we reached            with management on that date. Action
agreement with management on that             has been completed on five of the seven
date. Action has been completed on one        recommendations. The Agency is
of the three recommendations. The             actively working to implement the other
Agency is actively working to                 two recommendations.
implement the other two
recommendations.




NLRB OIG Semiannual Report                7         October 1, 2008 – March 31, 2009
                                              INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 118 contacts, initiated 5 cases, and closed 5 cases. The investigations resulted
in two resignations, one referral to the Department of Justice, two convictions, and
$14,654.00 in investigative recoveries.


                        Case Workload                  Contacts Processed

                  Open (10/1/2008)       10       Received                  118

                  Initiated               5       Initiated Investigation     1

                  Closed                  5       Opened Case --              0
                                                  Referred to Agency
                  Open (3/31/2009)       10       Non-Investigative         117
                                                  Disposition


   Threats to a Board Agent. The                  convicted of making threats against a
OIG initiated an investigation after a             Federal employee and witness
Board Agent received a threat from an              tampering. The subject was sentenced to
employer. After we referred this matter            5 years confinement and 3 years
to the appropriate U.S. Attorney’s                 probation. (OIG-I-417)
Office, the Federal Bureau of
                                                       Fraud. As previously reported,
Investigation (FBI) took the lead on this
                                                   the OIG initiated an investigation of an
matter. The employer then made
                                                   employee who was suspected of creating
additional threats to employees at the
                                                   fraudulent leave and earnings statements
NLRB Headquarters. Thereafter, we
                                                   for a third party who submitted them
worked jointly with the FBI to obtain
                                                   with an application for low income
evidence that substantiated the
                                                   housing benefits. The U.S. Attorney’s
employer’s criminal activity. In a prior
                                                   Office declined prosecution. We then
reporting period, the subject was
                                                   continued our investigation and found
indicted on charges related to her threats
                                                   that the employee and other individuals,
to kill NLRB employees. During this
                                                   including another employee, used the
reporting period, the subject was


NLRB OIG Semiannual Report                    8              October 1, 2008 – March 31, 2009
                                                             INVESTIGATIONS PROGRAM

fraudulent leave and earnings statements           Misuse of Time and
to receive state welfare benefits. The          Resources. After receiving a Hotline
employee that was initially involved in         complaint, the OIG initiated an
the investigation resigned before we            investigation of an employee who used
issued our investigative report. The            his official telephone to conduct outside
second employee resigned in lieu of a           employment. During the investigation,
removal action after our investigative          we obtained an electronic copy of the
report was issued.                              employee's Government e-mail account.
                                                A review of the e-mail messages
Because the misconduct involved state           disclosed evidence to support additional
welfare benefits, we also provided our          allegations involving the misuse of
investigative results to the state              official time to conduct outside
prosecutor’s office. In a prior reporting       employment activities. Evidence
period, the former employees were               collected from the employee's
arrested on felony charges involving            Government computer provided
fraud and perjury and one was convicted         additional substantiation of the
and sentenced. During this reporting            allegations. After the case was
period, the remaining employee was              presented to the Department of Justice,
convicted of nine counts of perjury, one        the Agency and the employee entered
count of grand theft, and one count of          into an agreement for his resignation and
welfare fraud. This former employee             restitution of $14,654.00. Based on the
received a sentence of 210 days                 resolution of this matter by the Agency,
confinement, 2 years probation, and             the U.S. Attorney’s Office declined
120 hours of community service.                 prosecution. (OIG-I-426).
(OIG-I-412)




NLRB OIG Semiannual Report                  9         October 1, 2008 – March 31, 2009
                                                              INVESTIGATIONS PROGRAM

   Abuse of Property and                           Travel Card Abuse. We
Insubordination. We initiated an                 initiated a case involving an employee
investigation of an employee who                 who misused the Government travel
removed a computer hard drive from the           card. During the 18-months preceding
office and apparently did something to           our investigation, the employee used the
destroy it. During the course of the             travel card on eight occasions to receive
investigation, additional information was        cash advances at casinos. The total
received regarding allegations that the          amount of the cash advances, including
employee wrongfully came into                    the associated fees, was $3,314.76. On
possession of official electronic files          two occasions, the employee used the
belonging to a management official, was          travel card for food and lodging for total
insubordinate, and provided false and/or         charges of $240.03 that were not related
misleading information to the OIG.               to official travel. Agency managers are
After we issued an investigative report,         considering appropriate administrative
the Agency issued to the subject a notice        action. (OIG-I-429)
of proposed removal. Thereafter, the
                                                    Travel Card Abuse. We
subject resigned. (OIG-I-420)
                                                 initiated a case involving an employee
                                                 who misused the Government travel
   Alteration of Records. We
                                                 card. During a 4-month period of time,
initiated an investigation of an employee
                                                 the employee made 22 purchases at gas
who altered Agency records for the
                                                 stations that totaled $934.38. During
benefit of a fellow employee. The U.S.
                                                 approximately the same period of time,
Attorney’s Office declined prosecution.
                                                 the employee was reimbursed $192.33
Agency managers are considering
                                                 for travel related expenses – including
appropriate administrative action.
                                                 $62.50 for parking and tolls.
(OIG-I-426)




NLRB OIG Semiannual Report                  10         October 1, 2008 – March 31, 2009
                                                               INVESTIGATIONS PROGRAM

The employee also failed to pay the              abuse are encouraged to contact OIG. A
balance due on the travel card and the           log of calls to a nationwide toll free
travel card account was terminated.              number or the office numbers and a log
During the investigation, the employee           of mail, e-mail, and facsimile messages
provided misleading statements to the            are maintained. All information
OIG investigator. Agency managers are            received, regardless of the method used,
considering appropriate administrative           is referred to as Hotline contacts.
action. (OIG-I-430)
                                                 The information received over the
   Transit Subsidy Fraud
                                                 Hotline is the basis for the initial review
and Misleading Statement. As
                                                 for potential investigations. The
previously reported, the OIG initiated an
                                                 information is analyzed to determine if
investigation of an employee who was
                                                 further inquiry is warranted. Most
suspected of driving to work while
                                                 Hotline contacts are calls from members
receiving the transit subsidy. The U.S.
                                                 of the public seeking help on an
Attorney’s Office declined prosecution.
                                                 employment related problem or issues
During this reporting period, the
                                                 outside OIG and/or Agency jurisdiction.
employee and the Agency entered into
an alternative dispute resolution
                                                 As appropriate, OIG refers these callers
agreement involving a 5-day suspension
                                                 to the Regional Office; local, state, or
that will be held in abeyance pending a
                                                 Federal agency; or private resource to
year of good behavior. (OIG-I-425)
                                                 provide assistance. During this
                                                 reporting period, OIG received 118
Hotline
                                                 Hotline contacts, of which 47 were
Employees and members of the public
                                                 telephone calls or walk-ins and 71 were
with information on fraud, waste, and
                                                 in writing.




NLRB OIG Semiannual Report                  11          October 1, 2008 – March 31, 2009
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed five pieces of legislation.

Legislation                                      and develop a plan to determine the
We reviewed the following legislation            scope, frequency, and number of
and provided input when appropriate.             periodic audits of cardholders; (2)
                                                 perform periodic audits of card holders
H.R. 216, Government Credit Card                 and report results to the agency head;
Abuse Prevention Act of 2009. This               and (3) report to the Director of the
legislation would require the head of            Office of Management and Budget and
each executive agency, except the                the Comptroller General on the
Department of Defense, to: (1) establish         implementation of recommendations to
safeguards and internal controls for             address audit findings.
purchase cards, convenience checks, and
travel cards; and (2) prescribe                  H.R. 478, Federal Agency
regulations implementing such                    Performance Review and Efficiency
safeguards and controls that provide for         Act. This legislation would amend the
adverse personnel actions or other               Inspector General Act of 1978 to make it
punishment against employees for card            the principal duty and responsibility of
violations, negligence, misuse, abuse, or        each Inspector General to review,
fraud.                                           annually, the operations, efficiency, and
                                                 effectiveness of Federal programs within
It also requires each agency Inspector           his or her entity and submit annually to
General to: (1) periodically conduct risk        Congress and the President
assessments of agency purchase and               recommendations, accompanied by
travel card programs and associated              proposed legislation, on whether an
internal controls, analyze weaknesses            abolishment, reorganization,
and the frequency of improper activity,          consolidation, or transfer of existing


NLRB OIG Semiannual Report                  12         October 1, 2008 – March 31, 2009
                                                 LEGISLATION, REGULATIONS, AND POLICY

Federal programs and agencies is                  make amendments to the False Claims
necessary to: (1) reduce Federal                  Act, including extending the time to
expenditures; (2) increase efficiency of          bring a civil action from 6 years to 10
government operations; (3) eliminate              years from the date of the violation. The
overlap and duplication in Federal                legislation would also allow the civil
programs and offices; (4) abolish                 penalty of not less than $5,000 and not
agencies or programs that no longer               more than $10,000 to be adjusted by the
serve an important governmental                   Federal Civil Penalties Inflation
purpose; and (5) identify reductions in           Adjustment Act of 1990.
amounts of discretionary budget
authority or direct spending that can be          S. 560 and H.R. 1409, Employee Free
dedicated to Federal deficit reduction.           Choice Act. This legislation would
                                                  amend the NLRA to allow employees to
S. 272 and H.R. 1507, Whistleblower               form a union either through majority
Protection Enhancement Act of 2009.               sign-up or an NLRB election. The
This legislation clarifies Congressional          legislation would also increase the
intent that Federal employees are                 penalties against employers that illegally
protected for any disclosure of waste,            fire or discriminate against workers for
fraud, or abuse - including those made as         their union activity during an organizing
part of an employee's job duties. It              or first contract drive, including
would also suspend the Federal Circuit            requiring employers to pay triple
Court of Appeals' sole jurisdiction over          backpay to workers whom they are
Federal employee whistleblower cases              found to have illegally fired; and allow
for 5 years.                                      employers and newly formed unions to
                                                  refer bargaining to mediation and, if
S. 458, False Claims Act Clarification            necessary, binding arbitration if they are
Act of 2009. This legislation would               not able to agree on a first contract.




NLRB OIG Semiannual Report                  13           October 1, 2008 – March 31, 2009
                                               LEGISLATION, REGULATIONS, AND POLICY

Regulations                                     Rules Revision Committee that develops
The Counsel to the Inspector General is         changes to the Agency's procedural
an advisory member of the Agency's              regulations.




NLRB OIG Semiannual Report                14          October 1, 2008 – March 31, 2009
                                                       LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                     Counsel also participates in the
The Inspector General is a member of            Interagency Investigative Data Mining
the Council of the Inspectors General on        Working Group.
Integrity and Efficiency. This
organization consists of Inspectors             Government Accountability Office
General at the Federal Government's             The IG Act states that each inspector
departments and agencies.                       general shall give particular regard to the
                                                activities of the Comptroller General of
The Assistant Inspector General for             the United States, as head of the
Audits, or designated auditors,                 Government Accountability Office
participated in the Federal Audit               (GAO), with a view toward avoiding
Executives Council, Financial Statement         duplication and ensuring effective
Audit Network, and the Interagency              coordination and cooperation. We had
Investigative Data Mining Working               no activity during this reporting period
Group.                                          that required coordination with GAO.


The Counsel participated in the Council
of Counsels to Inspectors General. The




NLRB OIG Semiannual Report                 15          October 1, 2008 – March 31, 2009
                                                                PEER REVIEWS
The IG Act provides that each Inspector General shall comply with standards established
by the Comptroller General of the United States. One of the standards states that
organizations conducting Government audits should have an external quality control
review at least once every 3 years. That review of our organization was conducted
during this reporting period by the Inspector General of the Federal Trade Commission
(FTC).

Audit Quality Control                           suitably designed and complied with to
The FTC conducted the review in                 provide reasonable assurance of
accordance with Government Auditing             performing and reporting in conformity
Standards and guidelines established by         with applicable professional standards in
the Council of the Inspectors General on        all material respects. Federal audit
Integrity and Efficiency. In his report,        organizations can receive a rating of
issued on February 6, 2009, the FTC             pass, pass with deficiencies, or fail. The
Inspector General concluded that the            NLRB OIG received a rating of pass.
system of quality control for the audit         No Letter of Comments was issued.
organization of the NLRB OIG has been




NLRB OIG Semiannual Report                 16         October 1, 2008 – March 31, 2009
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                        that were described in the previous semiannual reports.

(4)             One case was referred to prosecutorial authorities. There were two
                prosecutions and two convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 18.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs or that identified funds that could be put to better use. See Table 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      17           October 1, 2008 – March 31, 2009
                        AUDIT REPORTS BY SUBJECT MATTER

                                                                         Funds To
                                 Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number            Costs         Costs        Costs      Better Use

ADMINISTRATION

NLRB Fiscal Year 2008
Financial Statements
OIG-F-13-09-01                       0             0            0            0

Laptop Computer Accountability
and Security
OIG-AMR-59-09-01                     0             0            0            0




NLRB OIG Semiannual Report               18        October 1, 2008 – March 31, 2009
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    19   October 1, 2008 – March 31, 2009
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   20    October 1, 2008 – March 31, 2009
Every employee is the
guardian of integrity                                        .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   21   October 1, 2008 – March 31, 2009
